January 18, 2013

TO:            Patrick O’Rourke
               Chief Financial Officer
               Office of Financial Policy and Controls
               Health Resources and Services Administration


FROM:          /Gloria L. Jarmon/
               Deputy Inspector General for Audit Services


SUBJECT:       Independent Attestation Review: Health Resources and Services Administration
               Drug Control Accounting for Fiscal Year 2012 (A-03-13-00357)


This report provides the results of our attestation review of the Health Resources and Services
Administration (HRSA) fiscal year (FY) 2012 drug control accounting and the accompanying
FY 2012 Drug Control Obligation Summary with required table.

Each National Drug Control Program agency must submit to the Director of the Office of
National Drug Control Policy (ONDCP), not later than February 1 of each year, a detailed
accounting of all funds expended by the agency for National Drug Control Program activities
during the previous FY (21 U.S.C. § 1704(d)(A)). The section further requires that the
accounting be “authenticated by the Inspector General for each agency prior to submission to the
Director.” The report is the responsibility of HRSA’s management and was prepared by HRSA
in accordance with section 9 of the ONDCP Circular entitled Drug Control Accounting, dated
May 1, 2007. Section 9 allows an agency included in the National Drug Control Budget with
prior-year drug-related obligations of less than $50 million to submit an alternative report to
ONDCP consisting of only the table of prior-year drug control obligations and omitting all other
disclosures.

As required by the Federal statute (21 U.S.C. § 1704(d)(A)), we reviewed the attached HRSA
report entitled “Health Resources and Services Administration Drug Control Accounting for
Fiscal Year 2012,” dated November 6, 2012. We conducted our attestation review in accordance
with attestation standards established by the American Institute of Certified Public Accountants
and the standards applicable to attestation engagements contained in Government Auditing
Standards issued by the Comptroller General of the United States. A review is substantially less
in scope than an examination, the objective of which is to express an opinion on management’s
report; accordingly, we do not express such an opinion.
Page 2 – Patrick O’Rourke


HEALTH RESOURCES AND SERVICES ADMINISTRATION REPORT

HRSA’s report included a table that reported obligations of $17,686,564. HRSA chose to
provide the alternative report in lieu of a detailed report and provided a statement, as required by
the ONDCP Circular, that full compliance would constitute an unreasonable reporting burden.

We performed review procedures on HRSA’s FY 2012 Drug Control Obligation Summary and
table. In general, we limited our review procedures to inquiries and analytical procedures
appropriate for our attestation review.

OFFICE OF INSPECTOR GENERAL CONCLUSION

Based on our review, nothing came to our attention that caused us to believe that HRSA’s
FY 2012 drug control accounting report and the accompanying FY 2012 Drug Control
Obligation Summary and table were not fairly stated, in all material respects, based on the
ONDCP Circular. Further, nothing came to our attention that caused us to doubt that full
compliance with the Circular would constitute an unreasonable reporting burden.

                                             ********

Although this report is an unrestricted public document, the information it contains is intended
solely for the information and use of Congress, ONDCP, and HRSA and is not intended to be, and
should not be, used by anyone other than these specified parties. If you have any questions or
comments about this report, please do not hesitate to call me, or your staff may contact Kay L.
Daly, Assistant Inspector General for Audit Services, at (202) 619-1157 or through email at
Kay.Daly@oig.hhs.gov. Please refer to report number A-03-13-00357 in all correspondence.


Attachment
ATTACHMENT
                                                                                         ATTACHMENT
                                                                                         Page 1 of 2


("'"'4.     DEPARDlEl'T OF HEALTH & HtT'iAN SER\1(,ES                    Health Resources and Services Administration


,<~                                                                                           Rockyille, Maryland 20857
      TO:                         Director
                                  Office of National Drug Control Policy

      THROUGH: 	                  Sheila Conley 

                                  Deputy A sistant Secretary of Finance 

                                  Dep          f       and Human Services 


      FROM:                                   our e 

                                  Chief Financial Officer 

                                  Office of Financial Policy and Controls 

                                                         "!l'?
                                           f'~"
                                           .~,    0~
                                                   \,:   u,~
      DATE:

      SUBJECT: 	                  Health Resources and Services Administration Drug Control
                                  Accounting for Fiscal Year 2012


      In accordance with the Office of National Drug Control Policy Circular: Drug Control
      Accounting issued May 1, 2007, the Health Resources and Services Administration's (HRSA)
      Fiscal Year 2012 Drug Control Obligation Surrunary is enclosed. Since HRSA's obligations for
      drug-related activities fall below the reporting threshold 0[$50 million, we attest that [ull
      compliance with the ONDCP Circular wo~dd constitute an unreasonable reporting burden.
                                                                                     ATTACHMENT
                                                                                     Page 2 of 2
Page 2

             DEPARTMENT OF HEALTH AND HUMAN SERVICES
                         Health Resources and Services Administration


               Resource Summary                                   Dollars in Millions
                                                                  FY 2012 Obligated
               Drug Resources by Function
                Prevention                                                $3.5
                Treatment                                                 $14.2
                Total Drug Resources by Function                          $17.7

               Drug Resources by Decision Unit
                Bureau of Primary Health Care                             $17.7
                Total Drug Resources by Decision Unit                     $17.7
   1. 	 Methodology: The Health Center Program Uniform Data System (UDS) tracks a variety
        of information, including patient demographics, services provided, staffing, clinical
        indicators, utilization rates, costs, and revenues. UDS data are collected annually from
        grantees and reported at the grantee, state, and national levels. The UDS reporting
        provides a reasonable basis for estimating the share of the Health Center Program grant
        funding used for substance abuse treatment by health centers. Using the data reflected in
        the most current UDS at the time estimates are made (FY 2011), total costs of substance abuse
        services is divided by total costs of all services to obtain a substance abuse percentage (SA%).
        The funding estimates in the table above were computed as described below:

         FY 2012 Obligated Level: $17.7 million
         $17.7 million   SA% (.73%) x FY 2012 Health Center Program grants awarded for health center
                        services ($2.43 billion)

   2. 	 Methodology Modification: None

   3. 	 Material Weaknesses or Other Findings: None

   4. 	 Rcprogrammings or Transfers: None

   5. 	 Other Disclosures: None
